WAIVER

Supreme Court, U.S.
FILED

MAR 3 0 2021
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

20-7562

Kamme 0

Texas A&M University and System, et al.
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

0 I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date.

March 30; 2021

(Type or print) Name

Yvonne D. Bennett
Ei Mr.

Firm

0 Ms.

0 Mrs.

0 Miss

Office of the Attorney General of Texas

P .O. Box 12548
Austin, Texas
City & State

Address

Phone

512-463-2120

Zip
Email

78711

Yvonne.Bennett@oag.texas.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO, ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRE
RECEIVED
CC: Kamme 0, via email to aggiecarpentermom@gmail.com

APR - 1 2021
OFFICE OF THE CLERK
SUPREME COURT U.S.

KEN PAXTON
ATTORNEY GENERAL OF TEXAS
PHONE: (512)463-2120
FAX: (512) 320-0667
MAIL: vvonnc.bennett(t4texasatiornev general . goy

YVONNE D. BENNETT
Assistant Attorney General
General Litigation Division

March 30, 2021
Via First Class, U.S. Mail

Supreme Court of the United States
Office of the Clerk
1 First Street, NE
Washington, DC 20543
Re:

No. 20-7562; Kamme 0 v. Texas A&M University and System, et al.; Supreme Court of the
United States

Dear Sir/Madam:
Enclosed for filing please find the Waiver of Respondents executed by Yvonne D. Bennett in
the above-referenced matter.
Thank you for your attention to this matter.
Kind regards,
JeAtu,vq-e4,- HabtJennifer Holt,
Senior Paralegal to
Yvonne Bennett
Assistant Attorney General
cc:

Kamme 0 (via U.S. Mail and email to aggiecarpenternionigginall.com)

RECEIVED
Post Office Box 12548, Austin, Texas 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2) 4 6 3 - 2 1 0 0 • www.texasattorneygene

al.g°vAPR

7 2021

OFFICE OF THE CLERK
SUPREME COURT U.S.

